STATEMENT OF SERVICE
Case No. 20-366
Case Title:

Donald J. Trump, President of the United States, et al., v. New
York, et al,

Type of Document:
Respondent’s Opposition to Motion to Expedite Consideration of the
Jurisdictional Statement
Date documents were electronically filed in the U.S. Supreme Court:
September 28, 2020
Date documents were emailed to the Court and opposing counsel:
September 28, 2020
Date documents were sent via overnight Federal Express to the U.S.
Supreme Court (opposing counsel waived hard copy service):
September 28, 2020
Name, addresses and email addresses of individual served:
Jeffrey B. Wall
Acting Solicitor General
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

/s/ Dale E. Ho
Dale E. Ho
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2693
dho@aclu.org

